FOR IMMEDIATE RELEASE                                                  November 6, 2012
Media Contact: 202-565-3908

                   MEXICAN BUSINESSMAN SENTENCED
                       FOR SCHEME TO DEFRAUD
               EXPORT-IMPORT BANK OF THE UNITED STATES

WASHINGTON, DC, November 1, 2012 – The Office of Inspector General (OIG) for the
Export-Import Bank of the United States (Ex-Im Bank) announced today that the owner
of a pecan brokerage company in Ciudad Juarez, Chihuahua, Mexico, was sentenced on
October 31, 2012 to serve 6 months home confinement for his role in a scheme to defraud
Ex-Im Bank.

Eduardo Rodriguez-Davalos, 49, was sentenced by Judge Kathleen Cardone in the U.S.
District Court in El Paso, Texas. Rodriguez pleaded guilty on May 15, 2012, to one
count of making a false statement in connection with a scheme to defraud Ex-Im Bank of
approximately $975,025. In addition to his prison term, Rodriguez was sentenced to
serve five years of supervised release and was ordered to pay a $25,000 fine.
Rodriguez’s sentencing is part of an ongoing federal investigation involving multiple
subjects engaged in fraudulent loan applications and exports into Mexico.

According to court documents, Rodriguez, a Mexican citizen, was the owner of a pecan
brokerage company in Ciudad Juarez known as Procesadora La Nogalera S.A. de C.V.
and resided both in Ciudad Juarez, Mexico and in El Paso, Texas. Rodriguez admitted
that in 2005, he applied for an Ex-Im insured loan for approximately $975,025 through a
private finance company in Maryland. As part of his fraudulent loan application,
Rodriguez and others submitted a fraudulent loan application, invoices, letters, and bills
of lading to falsely represent to the Maryland finance company and Ex-Im Bank the
purchase and export of U.S. goods to Rodriguez in Mexico. Rodriguez also admitted to
assisting a co-conspirator transfer $351,000 in Ex-Im Bank insured loan proceeds.

The case was prosecuted by the Criminal Division’s Fraud Section and Assistant U.S.
Attorney’s Office for the Western District of Texas, El Paso Division. The case was
investigated by the Ex-Im Bank OIG, Homeland Security Investigations in El Paso, and
the Internal Revenue Service-Criminal Investigation and U.S. Postal Inspection Service,
Washington, DC.

Ex-Im Bank is an independent executive agency that helps create and maintain U.S.
jobs by filling gaps in private export financing at no cost to American taxpayers. Ex-
Im Bank provides a variety of financing mechanisms, including working capital
guarantees, export credit insurance and other financing to help foreign buyers
purchase U.S. goods and services.



                   811 Vermont Avenue, NW Washington, D.C. 20571
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations.

Additional information about the OIG can be found at www.exim.gov/oig.
Complaints and reports of waste, fraud, and abuse related to Ex-Im Bank programs
and operations can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946)
or via email at IGhotline@exim.gov.




                 811 Vermont Avenue, N.W. Washington, D.C. 20571
